No. ________
IN THE

Supreme Court of the United States
________________
THE CHAMBERLAIN GROUP, INC.,
Petitioner,
v.
TECHTRONIC INDUSTRIES CO. LTD., et al.,
Respondents.
APPLICATION TO THE CHIEF JUSTICE
FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FEDERAL CIRCUIT

Pursuant to Rule 13(5), The Chamberlain Group, Inc. moves for an extension
of time of 60 days, to and including May 15, 2020, within which to file a petition for
a writ of certiorari.
1. The judgment from which review is sought is The Chamberlain Group,
Inc. v. Techtronic Industries Co. Ltd., et al., 935 F.3d 1341 (Fed. Cir. 2019). A copy
of the decision is attached as Exhibit 1. The decision of the Federal Circuit is dated
August 21, 2019. A copy of the Federal Circuit’s order denying rehearing is attached
as Exhibit 2. The order is dated December 17, 2019. The current deadline for filing
a petition for writ of certiorari is March 16, 2020. The jurisdiction of this Court is
based on 28 U.S.C. § 1254(1).
2. This case presents at least the following substantial question of law
meriting this Court’s attention: whether the Federal Circuit is applying the wrong
standard for deciding if a patent claim is eligible for patent protection under 35

U.S.C. § 101 and Alice Corp. Pty. Ltd. v. CLS Bank International, 573 U.S. 208
(2014). Several Federal Circuit judges have warned that the circuit’s post-Alice
precedents not only reflect deep divisions among the judges but also improperly
narrow the scope of patent eligibility under § 101. See, e.g., Athena Diagnostics, Inc.
v. Mayo Collaborative Servs., LLC, 927 F.3d 1333, 1363 (Fed. Cir. 2019) (Moore, J.,
dissenting from denial of rehearing en banc) (the “majority of this court” has
“definitively” misconstrued § 101, such that patentees’ “only hope lies with the
Supreme Court or Congress”); id. at 1371 (O’Malley, J., dissenting from denial of
rehearing en banc) (noting the Federal Circuit’s “confusion and disagreements over
patent eligibility”). In two recent invitation briefs, the Solicitor General has agreed
that the issue is worthy of this Court’s attention when presented in the proper
vehicle. See Br. of U.S. at 8, 14-21, No. 18-817, Hikma Pharm. USA Inc. v. Vanda
Pharm. Inc. (Hikma Br.); Br. of U.S. at 10, 12-14, No. 18-415, HP Inc. v. Berkheimer
(Berkheimer Br.).
3. This case presents an ideal vehicle. Petitioner’s claims recite a specific
machine that both the PTO and a jury found to be novel and nonobvious: A
“moveable barrier operator” (for example, the electric motor that operates a garage
door) that integrates several components used to monitor and control the barrier’s
movement. Chamberlain, 935 F.3d at 1345. Prior to Chamberlain’s invention,
garage door operators could only receive signals telling the operator to open or close
the door, or turn on or off an integrated light. Chamberlain redesigned the garage
door operator with different physical components to give it the new capability to
receive signals (such as from as a remote control in your car or a switch on the wall
2

of the garage), analyze those signals, and send wireless signals describing the
position of the door or the status of the light. Using Chamberlain’s operator, you
can check to make sure the garage door is closed from your cell phone or other
devices. Id. Purporting to apply Alice, the Federal Circuit invalidated Petitioner’s
claims under § 101 after concluding that they were impermissibly “directed to” “the
abstract idea of wirelessly communicating status information about a system.” Id.
at 1348.
In so ruling, the Federal Circuit once again fundamentally misconstrued
§ 101. See, e.g., Mayo Collaborative Servs. v. Prometheus Labs., Inc., 566 U.S. 66
(2012) (reversing on § 101 grounds); Bilski v. Kappos, 561 U.S. 593 (2010) (rejecting
Federal Circuit’s astatutory “machine or transformation” test). The Federal Circuit
has lost sight of the underlying “basic principles” of § 101: The statute is designed to
prevent “monopolization of [the basic] tools [of science and technology] through the
grant of a patent” that “might tend to impede innovation more than it would tend to
promote it.” Mayo, 566 U.S. at 71. But § 101 is written in “expansive terms,”
because “Congress plainly contemplated that the patent laws would be given wide
scope” and ensure that “ingenuity should receive a liberal encouragement.” Bilski,
561 U.S. at 601 (internal quotations and citations omitted). As this Court has
explained, the abstract idea exception—along with the other “implicit exceptions” to
patent eligibility—must be read consistently with the broad language of the statute
and Congress’s purpose. See Mayo, 566 U.S. at 70-72. That exception is designed to
prevent patents that would “pre-empt use of [an abstract idea] in all fields,”
“effectively grant[ing] a monopoly over an abstract idea.” Bilski, 561 U.S. at 612.
3

But the Court has expressly cautioned that the abstract idea exception must be
applied narrowly, “lest it swallow all of patent law.” Alice, 573 U.S. at 217. Section
101 requires that specific “applications” of an abstract idea “to a new and useful
end”—as opposed to sweeping claims to the idea itself—must “remain eligible for
patent protection.” Id.
The Federal Circuit’s decision here eviscerated that critical, longstanding
boundary on the statutory exceptions. At the outset, rather than ask whether the
claims “as a whole” were directed to an abstract idea, Alice, 573 U.S. at 218 n.3, the
court ignored all claim elements that it believed were known in the “prior art”—
virtually every component of the moveable barrier operator. Chamberlain, 935 F.3d
at 1345-46. The court then considered only whether the remaining claim element it
considered novel—the use of a wireless status transmitter—was, in isolation,
directed to an abstract idea. Id. at 1346-48. And, even within that unduly narrow
analysis, the court departed from the statutory text and purpose and this Court’s
precedent and imposed unfounded, overly technical restrictions on what counts as
patent-eligible subject matter. Id. at 1349 (discounting the “integrated controller
and wireless transmitter” in Chamberlain’s invention).
This approach to § 101 analysis is now firmly entrenched in the Federal
Circuit. But it directly contradicts this Court’s precedents. Decades ago, Diamond v.
Diehr cautioned that when applying § 101, it would be “inappropriate to dissect the
claims into old and new elements and then to ignore the presence of the old
elements in the analysis.” 450 U.S. 175, 188 (1981). Alice expressly reaffirmed that
rule, instructing courts to evaluate whether the claims “as a whole” were directed to
4

an abstract idea. 573 U.S. at 218 n.3. Yet the Federal Circuit is flatly disregarding
it, with perverse results: The decision here invalidated claims that are plainly
drawn to a specific, innovative machine, treating them as if they covered nothing
but an abstract idea.
The Federal Circuit wrongly held that Petitioner’s unique application of
wireless technology to a new and useful end—a better garage door operator—is
ineligible for patent protection. That precedent threatens to further divorce the
Federal Circuit’s patent eligibility jurisprudence from the language of the statute
and this Court’s precedent discussing the limits of patent eligibility. The Federal
Circuit’s incorrect test could be used to invalidate any improved machine that
incorporates wireless technology—or otherwise applies one known technology into a
new field—chilling innovation across a wide swath of industries. This Court’s
review is necessary to correct the Federal Circuit’s misreading of Alice and properly
cabin the exceptions to patent eligibility under § 101, including the abstract-idea
exception.
4. Although it agreed that this Court should address the Federal Circuit’s
misguided approach to § 101, the Solicitor General recommended against review in
Hikma and Berkheimer because they were not suitable vehicles. In doing so, the
Solicitor General articulated several criteria for identifying an “appropriate case”
for certiorari. Hikma Br. at 8; Berkheimer Br. at 10. This case satisfies the most
important of the criteria. Petitioner will seek review of § 101’s substantive standard
for patent eligibility. See Berkheimer Br. 9-10. The Federal Circuit’s erroneous
interpretation of that substantive standard “cast[s] doubt on the patent-eligibility of
5

a wide swath” of technologies. Hikma Br. 21. And the Federal Circuit’s ultimate
holding—that Petitioner’s claims to a novel and nonobvious garage door operator
fall within the abstract-idea exception to patent eligibility—is not “correct” under a
faithful application of Alice. Id.
5. An extension of time will help to ensure that these vitally important and
complicated issues are presented to the Court clearly and thoroughly. Counsel of
record was only recently retained to represent Petitioner and did not represent it on
appeal or in the district court. Additional time is necessary and warranted for
counsel to become familiar with the record below, relevant legal precedents, and the
issues involved in this matter.
6. An extension is further justified by the press of business on numerous
other matters. The undersigned was responsible for filing a brief for respondent in
this Court in Google LLC v. Oracle America Inc., No. 18-956, on February 12, 2020,
and is responsible for filing a reply brief in the Missouri Court of Appeals in Ingham
v. Johnson & Johnson, No. ED 107476, on March 3, 2020, and a reply brief in this
Court in Torres v. Madrid, No. 19-292, on March 20, 2020. The undersigned will
also be presenting oral argument in the Ninth Circuit in Arconic Inc. v. APC
Investment Co., No. 19-55181, on March 3, 2020; in this Court in Google LLC v.
Oracle America Inc. on March 24, 2020; and in the Federal Circuit in Bio-Rad
Laboratories, Inc. v. 10x Genomics, Inc., Nos. 19-2255, -2285, on April 10, 2020.

6

7. For the foregoing reasons, Petitioner requests that an extension of time be
granted, to and including May 15, 2020, within which Petitioner may file a petition
for a writ of certiorari.
Respectfully submitted,

_____________________________________
E. Joshua Rosenkranz
Counsel of Record
Ned Hirschfeld
ORRICK, HERRINGTON & SUTCLIFFE LLP
51 West 52nd Street
New York, NY 10019
(212) 506-5380
jrosenkranz@orrick.com

Benjamin C. Elacqua
FISH & RICHARDSON, P.C.
1221 McKinney Street, Ste. 2800
Houston, TX 77010
Katherine Vidal
Michael R. Rueckheim
WINSTON & STRAWN LLP
Middlefield Road, Ste. 205
Menlo Park, CA 94025

Melanie L. Bostwick
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15th Street NW
Washington, DC 20005
Elizabeth R. Moulton
ORRICK, HERRINGTON & SUTCLIFFE LLP
1000 Marsh Road
Menlo Park, CA 94025

February 27, 2020

7

